                                                                           n
                                                                            --

                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: A06+300T?                                                                  Page 1 of 1



                We received several allegations concerning an NSF program officer (PO) and a
         particular NSF-funded project under the PO'S responsibility.'

                    It was alleged that the PO was misusing appropriated funds by directing the awardee
         to spend funds in a manner inconsistent with the appropriations account that funded the
         project. We concluded that appropriations accounts are not as clearly-delineated as set out
         in these allegations, and the expenditures identified were within the scope of the project.

                It was alleged that NSF made misrepresentations about the project to Congress, but
         there was no evidence of misrepresentations and we found.no reason to suspect them.

                It was alleged that the PO micromanaged the project and did not leave enough
         decisionmaking to the awardee. It was also alleged that some of the PO'Sdecisions were poor
         ones. We concluded that, while the PO'S oversight of the project was certainly not optimal,
         it was not unreasonable.

               It was alleged that the PO was abrasive and abusive when interacting with the
         awardee. We concluded that, while the PO'S conduct was abrasive, it was not sufficiently
         extreme to warrant intervention by our office.

                It was also alleged that the PO made threats to retaliate against a scientist in future
         proposals, because the scientist wrote a letter seeking to have one of the PO'S decisions
         changed. While several people associated with the project stated that they heard the PO
         make this threat, the PO denied it emphatically and we found no evidence that she had
         taken any retaliatory action. The PO agreed to be recused from any future proposals
         involving the scientist.

                    Accordingly, this case is closed.




NSF OIG FO&   2 (1 1/02)
